                 U.S. Department of Energy
                 Office of Inspector General
                 Office of Audits and Inspections




AUDIT REPORT
The Department of Energy's Management of
Cloud Computing Activities




 DOE/IG-0918                        September 2014
                                 Department of Energy
                                   Washington, DC 20585

                                      September 19, 2014


MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         Management of Cloud Computing Activities"

BACKGROUND

Cloud computing enables convenient, on-demand access to shared computing resources that can
be rapidly provided to users. The Office of Management and Budget (OMB) established the
Federal Cloud Computing Strategy because of the significant potential to reduce the cost of
Federal information technology systems, while improving capabilities and stimulating innovation
in information technology solutions. As part of this strategy, OMB instituted a "Cloud First"
policy designed to accelerate the pace with which cloud computing technologies are adopted and
used by the Federal government. In December 2011, the General Services Administration, along
with other Government bodies, established the Federal Risk Authorization Management Program
(FedRAMP), a risk-based program designed to provide a standard, centralized approach to
assessing cybersecurity controls and authorizing cloud computing services for operation. Federal
agencies had until June 2014, to ensure that all new and existing cloud services met FedRAMP
requirements.

In a prior Office of Inspector General (OIG) report on the Department's Management of Cloud
Computing Services (OAS-RA-L-11-06, April 2011), we concluded that the Department of
Energy had not developed policies and procedures governing security and other risks associated
with cloud computing and had not adequately coordinated cloud computing efforts. A recent
report by our colleagues at the National Aeronautics and Space Administration OIG, NASA's
Progress in Adopting Cloud-Computing Technologies (Report No. IG-13-021, July 2013),
identified weakness related to information technology governance, risk management practices
and security requirements. As a result of issues identified during that audit, a Government-wide
initiative was undertaken by the Council of Inspectors General for Integrity and Efficiency to
provide insight to agency heads and lawmakers on how well the Federal government has adopted
cloud computing technologies. In support of that effort, we initiated this audit to determine
whether the Department efficiently and effectively managed its cloud computing environment.

RESULTS OF AUDIT

The Department had not always effectively or efficiently acquired, implemented or managed its
cloud computing technologies. In particular, we found:
   •   Programs and sites independently acquired and managed cloud computing services
       valued at more than $30 million. Despite the significant investment and number of
       programs/sites that utilized cloud services, the Department had not developed and
       maintained a complete inventory of cloud services to help manage its efforts. While the
       Office of the Chief Information Officer (OCIO) only reported 44 ongoing cloud
       initiatives to OMB, our testwork revealed that the Department had initiated at least 130
       cloud computing efforts at 24 Federal and contractor locations. The lack of visibility into
       cloud computing efforts was not limited to the OCIO. We also found that program
       officials were often unaware of individual cloud computing efforts conducted at field
       offices and sites under their cognizance.

   •   The Department had not always established contracts with cloud computing service
       providers that ensured effective controls over the management of stored or transmitted
       information. Our review of eight contracts at six Federal and contractor locations found
       that contrary to Federal guidance and best practices, the contracts did not always address
       key business and cybersecurity risks. For instance, provisions/clauses permitting access
       to the cloud service provider's facilities, operations, documentation and databases by
       Department personnel were not incorporated into a majority of the contracts. This
       included the fact that, in many cases, the contracts did not allow for forensic
       investigations nor did they recognize the OIG’s authority to access facilities to support
       audits and investigations.

   •   The Department had not ensured that cloud computing services were implemented in
       accordance with FedRAMP. While OMB required that agencies utilize cloud service
       providers that met the cybersecurity requirements of FedRAMP by June 2014, we found
       that none of the cloud services reviewed had fully implemented these requirements.
       Notably, three services were in the process of implementing all requirements and
       obtaining FedRAMP approval. The Department also incorrectly reported to OMB that
       the majority of cloud services met all FedRAMP requirements even though many of the
       services had not been approved – a key step in the FedRAMP process.

These issues occurred, in part, because the Department lacked a comprehensive strategy
designed to ensure effective and efficient implementation of cloud computing technologies. In
particular, programs and sites, including both Federal and contractor organizations, had not
effectively coordinated efforts when implementing cloud computing initiatives. For instance,
neither the OCIO nor the program offices had taken sufficient action to identify a comprehensive
and accurate inventory of cloud computing services used across the complex. In addition,
officials had not provided adequate oversight to ensure that programs and sites had taken
appropriate action to acquire and implement cloud computing initiatives. In many cases, Federal
officials had not ensured that programs and sites carried out their responsibilities for meeting
FedRAMP requirements. Furthermore, programs and sites had not implemented risk
management processes to ensure that critical oversight controls were in place related to access to
facilities and data, establishment of service level agreements used to define acceptable levels of
service, and ability to conduct audits and investigations related to cloud computing contracts.

Officials commented that cloud computing technology is highly dynamic and presents various
risks. In addition, certain sites reported that they had realized cost savings through the
                                                2
implementation of cloud computing services. However, without further improvement, the
Department may not fully realize the potential benefits of adopting cloud computing
technologies. For example, absent effective coordination between programs and sites, the
Department may continue to expend more resources than necessary through the independent
acquisition and implementation of cloud computing technologies. Moreover, moving systems
and data into the cloud without an effective strategy, policy or adequate risk management
practices can result in cloud computing technologies that fail to meet mission needs and key
business or information technology security requirements.

While we recognize that there are challenges to implementing cloud computing services in a
decentralized environment such as that which exists within the Department, we made
recommendations that, if fully implemented, should help the Department manage its
implementation of cloud technologies in a more secure and cost effective manner.

MANAGEMENT REACTION

Management concurred with the report's recommendations and indicated that it had initiated or
planned corrective actions to address our recommendations. Management's comments and our
response are summarized and more fully discussed in the body of the report. Management's
formal comments are included in Appendix 3.

Attachment

cc:    Deputy Secretary
       Under Secretary for Nuclear Security
       Deputy Under Secretary for Management and Performance
       Deputy Under Secretary for Science and Energy
       Chief of Staff
       Chief Information Officer




                                               3
AUDIT REPORT ON THE DEPARTMENT OF ENERGY'S
MANAGEMENT OF CLOUD COMPUTING ACTIVITIES


TABLE OF CONTENTS

Audit Report

Details of Finding ............................................................................................................................1

Recommendations ............................................................................................................................6

Management Response and Auditor Comments ..............................................................................7

Appendices

     1. Objective, Scope and Methodology .....................................................................................8

     2. Related Reports ..................................................................................................................10

     3. Management Comments ....................................................................................................11
THE DEPARTMENT OF ENERGY'S MANAGEMENT OF
CLOUD COMPUTING ACTIVITIES

DETAILS OF FINDING
While the Department of Energy (Department) had implemented numerous cloud computing
initiatives in recent years, our review revealed that it had not always effectively or efficiently
acquired, implemented or managed cloud computing services. We found that programs and sites
were independently acquiring cloud computing services and providers and had not established an
inventory of ongoing efforts. In addition, the Department had not always established contracts
with cloud computing service providers that ensured effective controls over management of the
Department's information. Furthermore, the Department had not ensured that cloud computing
services utilized met the requirements of Federal Risk Authorization Management Program
(FedRAMP). Due to the increased use of cloud computing initiatives throughout the Federal
government, the Office of Management and Budget (OMB) directed that all agencies implement
the FedRAMP to standardize the approach to system security and testing and reduce redundancy.

Inventory of Cloud Computing Services

When working to implement new information technology solutions, programs and sites were
independently acquiring and managing cloud computing services and providers. We found that
the Department entered into cloud computing contracts valued at more than $30 million at
numerous programs and sites. Despite the significance of the ongoing efforts, the Department
had not developed and maintained a complete inventory of cloud computing services used by
programs and sites. Specifically, while the Office of the Chief Information Officer (OCIO)
reported that there were only 44 ongoing cloud initiatives, our test work revealed the Department
had at least 130 initiatives underway at 24 Federal and contractor locations. OCIO officials told
us that their information was based on responses to data calls submitted by programs to address
OMB reporting requirements. However, based on the results of our review, we determined that
the number of cloud computing initiatives reported by the Department to OMB was significantly
understated.

Even within programs, officials were often unaware of individual cloud computing efforts
conducted at their field offices and sites. For instance, Headquarters officials within the Office
of Science (Science) were unaware of all cloud services acquired at sites and field offices, or
which service providers were used. This was especially concerning because Science maintained
the majority of cloud computing efforts within the Department. While management commented
that many of the cloud computing efforts were still in the pilot and testing phase, our review
focused only on those cloud systems that were operational. In response to our review, Science
Headquarters and Argonne National Laboratory officials commented that they plan to leverage
our results to maintain a program-level inventory of cloud services and providers. Oak Ridge
National Laboratory also maintained an inaccurate inventory of service providers at the site.
Specifically, contrary to documentation and officials' responses provided during our review, site
officials told us near the end of our audit that one of their systems had been incorrectly reported
to us as a cloud system. While the lack of an adequate inventory may have limited impact on the
site's ability to manage security over cloud services, we are concerned that the inconsistent
information provided by the site will further contribute to the inventory weaknesses identified
within the Department. As noted in prior Office of Inspector General reports related to the


Details of Finding                                                                         Page 1
Department's unclassified cybersecurity program, maintaining an accurate and complete
inventory of systems is needed to plan for and institute appropriate protective measures for
systems, especially those that may contain sensitive and personally identifiable information.

Cloud Service Provider Contracts

The Department had not always established contracts with cloud computing service providers
that ensured effective controls over the management of the Department's information. In support
of a Government-wide review chartered by the Council of Inspectors General for Integrity and
Efficiency, we examined a sample of the Department's cloud computing contracts to determine
whether best practices for acquiring information technology as a service were met, as
recommended by the Federal Chief Information Officers Council and the Chief Acquisition
Officers Council. 1 In particular, our review of eight contracts at six Federal and contractor
locations identified that the contracts did not address or mitigate key business and cybersecurity
risks. For instance, contract clauses permitting access to the cloud service provider's facilities,
operations, documentation and databases by Department personnel were not incorporated into a
majority of the contracts reviewed. In addition, many of the contracts reviewed did not address
the Department's ability to conduct forensic investigations, procedures for electronic discovery,
or the Office of Inspector General's right to access facilities to support audits, inspections,
investigations and other reviews. Specifically:

    •   One contract reviewed did not contain an executed service level agreement with the cloud
        service provider that defined acceptable service levels, provided performance metrics and
        outlined enforcement mechanisms. Officials at Argonne National Laboratory had not
        ensured that performance measures such as uptime percentages, service outages and
        remedies were specified within contract documentation. Absent such a control, programs
        and sites would have little or no recourse should the cloud service provider fail to
        perform as intended.

    •   A majority of the cloud contracts reviewed lacked required and/or recommended
        practices, such as those in Federal Acquisition Regulations. In particular, seven of eight
        contracts reviewed omitted language permitting the Office of Inspector General access to
        pertinent cloud service records or the ability to interview cloud service personnel
        regarding Department related transactions.

    •   An ongoing review at the Bonneville Power Administration revealed weaknesses related
        to the site's procurement contract for a recruiting/human resource cloud service provider.
        Preliminary test work identified that Bonneville Power Administration's contract with the
        cloud service provider had not included several mandatory clauses and/or best practices
        such as those related to data ownership rights, inspection, and acceptance. As a result,
        Bonneville Power Administration exposed itself to unnecessary risk.

While we recognize that there are various contracting implications to consider when evaluating
cloud computing technologies, the purpose of the Government-wide Council of Inspectors

1
 Creating Effective Cloud Computing Contracts for the Federal Government: Best Practices for Acquiring IT as a
Service, February 24, 2012.


Details of Finding                                                                                    Page 2
General for Integrity and Efficiency review was to, among other things, evaluate contracts
between agencies and cloud service providers to determine whether applicable standards and best
practices had been appropriately implemented.

FedRAMP Implementation

The Department had not ensured that cloud computing providers utilized by programs and sites
met the requirements of FedRAMP. FedRAMP was established in 2011, by the General Services
Administration, along with other Government bodies, to provide a cost-effective, risk-based
approach for the adoption and use of cloud services by making available a "do once, use many
times" approach. Although OMB required that agencies' cloud service providers must be
compliant with FedRAMP by June 2014, we found that various cloud providers reviewed were
not approved and/or had not begun the FedRAMP approval process, to include submission of
security documentation to FedRAMP.

While officials told us that certain cloud services were in the process of becoming approved,
none of the cloud services reviewed had yet obtained FedRAMP approval to ensure that security
authorizations could be leveraged Government-wide. In addition, we determined that none of
the contracts reviewed required approval by the deadline. We found that only one cloud service
provider used by several sites reviewed had submitted security assessment packages to
FedRAMP for inclusion in the repository – a process designed to reduce the burden of
duplicative security testing by other organizations. As a result, the lack of implementation may
limit the Department's ability to realize reduced procurement and operating costs related to
assessing FedRAMP security controls.

We also found that the Department did not accurately report progress as part of its quarterly
submissions to OMB. Specifically, based on the OCIO's data call instructions, Department
elements reported that 30 of 44 cloud initiatives met FedRAMP requirements even though the
services had not fully implemented requirements and been approved by FedRAMP authorities.
Although one site reported that all 20 of its cloud computing services were compliant with
FedRAMP, we found no evidence that the services had been approved, which could have
allowed other organizations to eliminate duplicative testing of the same cloud services.
Similarly, while the OCIO noted that one of its cloud service providers was approved, we found
that the provider had only initiated the process and had yet to be designated FedRAMP
compliant. Furthermore, for those services that were not approved, the Department did not
identify and report planned corrective actions to OMB, as required. Absent approval of cloud
computing services, the Department may not meet FedRAMP's primary objective of providing a
cost-effective, risk-based approach to cloud services by leveraging cloud service assessment and
authorization activities.

Cloud Computing Strategy

The issues we identified occurred, in part, because the Department lacked a comprehensive
strategy designed to ensure effective and efficient implementation of cloud computing
technology. In particular, programs and sites had not effectively coordinated efforts when
implementing cloud computing initiatives. Officials also had not provided adequate performance



Details of Finding                                                                       Page 3
monitoring to ensure that programs and sites had taken appropriate action to effectively acquire
and implement cloud computing initiatives. In addition, programs and sites had not adequately
implemented risk management processes to ensure that critical oversight controls over cloud
service providers were in place.

                                         Coordination

Department programs and sites, including both Federal and contractor organizations, had not
effectively coordinated efforts when implementing cloud computing initiatives. For instance,
neither the OCIO nor the program offices had taken sufficient action to identify a comprehensive
and accurate inventory of cloud computing services in use across the complex. Such an
inventory could have helped establish a baseline architecture and potentially eliminated
duplication by leveraging cloud acquisition efforts. Although the OCIO issued a request to
programs and sites to determine the number of cloud initiatives throughout the Department,
responses to the data call were, in many cases, nonexistent. Even when responses were
provided, we found that the OCIO had not taken action to validate the results prior to reporting
cloud computing information to OMB. In addition, although the Department developed
documents such as the Department of Energy National Laboratories and Plants Leadership in
Cloud Computing and the Fiscal Years 2014-2018 Information Resources Management Strategic
Plan, we found that these documents did not address elements such as FedRAMP requirements
and/or coordination of programmatic and site cloud computing efforts.

Notably, we observed positive actions designed to increase collaboration among national
laboratories and decrease the time spent on contract negotiations. In one case, a blanket
purchase agreement for a cloud service was negotiated by Lawrence Berkeley National
Laboratory on behalf of several of the Department's programs and sites. Officials told us that the
agreement included favorable pricing terms that provided the opportunity to decrease the per
user license cost as more customers subscribe to the service.

                             Oversight and Risk Management

Officials had not ensured that programs and sites had taken appropriate action to effectively
acquire and implement cloud computing services. For instance, contrary to industry best
practices, Department officials had not established policies and procedures to ensure that
implementation of cloud computing initiatives included common considerations such as
information security risks related to privacy, compliance, data location, certification and records
management. We also found that no guidance existed related to areas such as service level
agreements, auditing and end-user roles and responsibilities. Although the OCIO developed the
DOE Cloud Computing Toolkit, in September 2012, to provide limited cloud computing
guidance, the document does not carry the force of mandate to assist Department officials with
developing a policy framework, ensuring appropriate coordination or setting strategy based on
risks in alignment with the Department's enterprise architecture. Further, many program and site
officials did not know the toolkit existed or did not utilize the document. Notably, management
commented that its cloud computing requirements for the Office of Energy Information
Technology Services exceeded FedRAMP requirements in certain instances, such as in the case
of establishing the trustworthiness of foreign nationals.



Details of Finding                                                                         Page 4
Officials also had not ensured that programs and sites, including management and operating
contractors, carried out their responsibilities for meeting FedRAMP requirements. For example,
management and operating contractor officials commented that they were not required to comply
with FedRAMP. As such, sites were not working with cloud service providers to update
contractual requirements or identify actions needed to address the requirements of FedRAMP for
each service. A Science Headquarters official commented that without Department policy, it
was difficult to enforce the requirements on contractors. However, an OMB memorandum on
Security Authorization of Information Systems in Cloud Computing dictated that FedRAMP
policy is applicable to information systems that support operations and assets of the Department,
including those systems provided or managed by other agencies or contractors. These issues
were exacerbated by incorrect interpretation of FedRAMP policy by programs and sites,
including certain elements of the OCIO. While OCIO officials stated that FedRAMP policy
required that a Federal cloud service be compliant with security controls established by the
National Institute of Standards and Technology, they asserted that services were not required to
be certified as a cloud service provider through the FedRAMP process. However, FedRAMP
officials stated that cloud service providers must be both compliant with FedRAMP security
controls and approved by FedRAMP authorities.

We also found that programs and sites had not implemented risk management processes to
ensure that critical oversight controls were in place related to access to facilities and data,
establishment of service level agreements and the ability to conduct audits and investigations.
For example, while Argonne National Laboratory officials stated that they had discussed the risk
of moving information into the cloud with Federal officials who accepted the risk as part of the
Laboratory's overall risk management process, we found that items such as a risk assessment and
related mitigating controls were not documented or approved, as appropriate. To its credit, Idaho
National Laboratory worked extensively with its authorizing official to ensure that key business
and cybersecurity risks were evaluated and mitigated as necessary within cloud contract
provisions prior to placing the service in operation. According to the National Institute of
Standards and Technology, placing Federal systems and data into a public cloud poses
challenges because the computing environment is under the control of the cloud service provider
rather than the Department. As such, effective risk management requires establishing contracts
that address how a contractor's performance will be managed and how cybersecurity, privacy and
information management requirements will be met.

Opportunities for Improvement

Without improvements, the Department may not fully realize the potential benefits of adopting
cloud computing technologies, including improved information technology service delivery,
increased collaboration and potential cost reductions. In addition, absent effective coordination
between programs and sites, the Department may spend more resources than necessary
independently acquiring and implementing cloud computing technologies. Transitioning to
cloud computing services without an effective strategy, policy or adequate risk management
practices can result in cloud computing technologies that fail to meet mission needs and key
business or information technology security requirements. Ultimately, the availability, integrity
and confidentiality of Federal systems and data may be placed at an unnecessarily high risk.
Furthermore, continuing on a path of non-compliance with FedRAMP requirements may prevent
the Department and its contractors from effectively leveraging ongoing initiatives, resulting in
duplicative efforts and resources related to implementing security processes and controls.

Details of Finding                                                                       Page 5
RECOMMENDATIONS
To improve the management and coordination of cloud computing activities, we recommend that
the Under Secretary for Nuclear Security, the Deputy Under Secretary for Management and
Performance and the Deputy Under Secretary for Science and Energy, in coordination with the
Department's and National Nuclear Security Administration's Chief Information Officers:

   1. Establish a cloud computing strategy in accordance with FedRAMP requirements that
      includes effective coordination of programmatic and site efforts and development of an
      inventory of cloud computing services.

   2. Ensure effective oversight over cloud computing efforts, including development and
      implementation of policies and/or procedures related to the acquisition, implementation
      and security of cloud computing services that:

          a. Ensures contracts with cloud service providers include, among other things,
             language related to service level agreements, auditing and roles and
             responsibilities;

          b. Clarifies discrepancies between the Office of the Chief Information Officer and
             FedRAMP related to approval of the Department's cloud service providers in
             accordance with Federal requirements; and

          c. Provides direction ensuring that the Department and its management and
             operating contractors implement systems in accordance with applicable
             FedRAMP requirements.

   3. Ensure key business and security risks related to implementation of cloud computing
      services are adequately evaluated, mitigated and documented.




Recommendations                                                                        Page 6
MANAGEMENT RESPONSE
Management concurred with each of the report's recommendations and indicated that corrective
actions were initiated or planned to address the issues identified. For example, the Department
established an Information Management Governance Board that will be leveraged to align and
communicate cloud strategy and requirements to support the Department's mission and
objectives. In addition, management commented that the Department will continue to develop,
evaluate and revise guidance regarding service level agreements, auditing and roles and
responsibilities, including the use of standard contractual clauses. Management also indicated
that the Department is working with the FedRAMP Program Management Office to clarify the
requirements for FedRAMP compliance and approval for the Department's cloud computing
services.

AUDITOR COMMENTS
Management's comments and planned corrective actions were responsive to our
recommendations. Management's comments are included in Appendix 3.




Management Response and Auditor Comments                                                Page 7
                                                                              APPENDIX 1

                   OBJECTIVE, SCOPE AND METHODOLOGY
Objective

The objective of this audit was to determine whether the Department of Energy (Department)
efficiently and effectively managed its cloud computing environment.

Scope

The audit was performed between January and September 2014, at Department Headquarters in
Washington, DC and Germantown, Maryland; the Argonne National Laboratory in Argonne,
Illinois; the Fermi National Accelerator Laboratory in Batavia, Illinois; the Idaho National
Laboratory in Idaho Falls, Idaho; the Lawrence Berkeley National Laboratory in Berkeley,
California, and the Oak Ridge National Laboratory in Oak Ridge, Tennessee. We reviewed
cloud computing activities for various program offices, including the Offices of Nuclear Energy,
Science, Fossil Energy, Environmental Management, the Chief Information Officer, as well as
the National Nuclear Security Administration. The audit was conducted under Office of
Inspector General Project Number A14TG017.

Methodology

To accomplish our objective, we:

   •   Reviewed applicable laws, regulations and directives related to cloud computing.

   •   Reviewed relevant reports issued by the Office of Inspector General and the Government
       Accountability Office.

   •   Reviewed best practices and Office of Management and Budget memoranda pertaining to
       cloud computing activities such as the Federal Risk and Authorization Management
       Program.

   •   Judgmentally selected a sample of cloud services for a detailed review. We selected
       eight services from cloud computing initiative surveys that were completed by the
       Department's program offices. Our selection criteria included the cost of the service,
       number of users and whether the service had been placed into production.

   •   Reviewed relevant documentation such as cloud contracts, terms of service, service level
       agreements and non-disclosure agreements.

   •   Held discussions with field site officials and officials from various Departmental offices
       responsible for cloud computing activities and cloud acquisition and contracting.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


Objective, Scope and Methodology                                                          Page 8
                                                                              APPENDIX 1
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. Accordingly, we assessed significant
internal controls and compliance with laws and regulations to the extent necessary to satisfy the
audit objective. In particular, we assessed the Department's implementation of the GPRA
Modernization Act of 2010. Although the Department had established certain overarching
performance goals subsequent to our audit work, none of the sites evaluated had established
performance metrics specific to the acquisition and use of cloud computing services. Because
our review was limited, it would not necessarily have disclosed all internal control deficiencies
that may have existed at the time of our audit. We did not rely on computer-processed data to
satisfy our audit objective.

An exit conference was held with Department management on September 12, 2014.




Objective, Scope and Methodology                                                          Page 9
                                                                             APPENDIX 2

                                 RELATED REPORTS
Office of Inspector General

   •   Audit Report on the Department's Management of Cloud Computing Services, (OAS-RA-
       L-11-06, April 2011). The report identified areas that the Department of Energy
       (Department) should consider before it moves forward with adopting such cloud
       computing technology on a large scale. Specifically, we noted several opportunities for
       improvement in the Department's cloud computing initiatives. For instance, the
       Department had not yet prepared policies and procedures governing security and other
       risks or established coordination requirements among sites to prevent duplication or other
       problems with cloud computing initiatives.

Government Accountability Office

   •   Report on the Progress Made but Future Cloud Computing Efforts Should be Better
       Planned, (GAO-12-756, July 2012). The report stated that selected Federal agencies
       have made progress implementing the Office of Management and Budget's "Cloud First"
       Policy. Consistent with this policy, each of the seven agencies incorporated cloud
       computing requirements into their policies and processes. During the review, the
       Government Accountability Office identified seven common challenges associated with
       the implementation of Office of Management and Budget's "Cloud First" Policy,
       including acquiring knowledge and expertise, as well as certifying and accrediting
       vendors.

   •   Report on Federal Guidance Needed to Address Control Issues with Implementing Cloud
       Computing, (GAO-10-513, May 2010). According to the report, cloud computing can
       both increase and decrease the security of information systems in Federal agencies. As
       such, Federal agencies had begun efforts to address information security issues for cloud
       computing, but key guidance was lacking and efforts remained incomplete. Although
       individual agencies identified security measures needed when using cloud computing,
       they had not always developed corresponding guidance. For example, only nine agencies
       had approved and documented policies and procedures for writing comprehensive
       agreements with vendors when using cloud computing.

National Aeronautics and Space Administration

   •   Audit Report on NASA's Progress in Adopting Cloud-Computing Technologies (Report
       No. IG-13-021, July 2013). The National Aeronautics and Space Administration's
       (NASA) information technology governance and risk management practices impeded the
       Agency from fully realizing the benefits of cloud computing and potentially put systems
       and data stored in the cloud at risk. For example, NASA officials moved systems and
       data into public clouds without the knowledge or consent of the Agency's Office of the
       Chief Information Officer. Moreover, on five occasions, NASA acquired cloud-
       computing services using contracts that failed to fully address the business and
       information technology security risks unique to the cloud environment.


Related Reports                                                                        Page 10
                                            APPENDIX 3

                      MANAGEMENT COMMENTS




Management Comments                              Page 11
                      APPENDIX 3




Management Comments        Page 12
                      APPENDIX 3




Management Comments        Page 13
                      APPENDIX 3




Management Comments        Page 14
                                        FEEDBACK
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We aim to make our reports as responsive as possible and ask you to consider sharing
your thoughts with us.

Please send your comments, suggestions and feedback to OIGReports@hq.doe.gov and include
your name, contact information and the report number. Comments may also be mailed to:

                              Office of Inspector General (IG-12)
                                     Department of Energy
                                    Washington, DC 20585

If you want to discuss this report or your comments with a member of the Office of Inspector
General staff, please contact our office at (202) 253-2162.
